        METEOROLOGICAL AND OCEANOGRAPHIC SUPPORT
               IN THE PACIFIC THEATER


Report No. D-2001-151                      June 28, 2001



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, visit the Inspector General, DoD,
Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax 604-8932.

Suggestions for Audits

To suggest ideas for or to request audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms
JTWC                  Joint Typhoon Warning Center
METOC                 Meteorological and Oceanographic
NAVAF                 Navy-Air Force
NPMOC                 Naval Pacific Meteorology and Oceanography Center
NPMOD                 Naval Pacific Meteorology and Oceanography Detachment
OWS                   Operational Weather Squadron
PACAF                 U.S. Pacific Air Forces
USPACOM               U.S. Pacific Command
                       Office of the Inspector General, DoD
Report No. D-2001-151                                                      June 28, 2001
  (Project No. D2000LG-0102.04)


                 Meteorological and Oceanographic Support
                           in the Pacific Theater

                                  Executive Summary

Introduction. This report is one in a series evaluating the effectiveness and efficiency
of DoD meteorological and oceanographic support provided by the Military
Departments to DoD and other governmental agencies.

Background. Chairman of the Joint Chiefs of Staff Instruction 3810.01A,
“Meteorological and Oceanographic Operations,” February 25, 1998, requires, when
possible, the Military Departments to assist each other in accomplishing meteorological
and oceanographic support in an efficient manner to avoid duplication and ensure
commonality in the development of meteorological and oceanographic capabilities. In
the Pacific theater, the Navy and the Air Force are the primary providers of
meteorological and oceanographic support for DoD and U.S. national programs.
Chairman of the Joint Chiefs of Staff Instruction 3810.01A requires each commander in
chief to designate a senior meteorological and oceanographic officer responsible for
coordinating all meteorological and oceanographic operations within the commander in
chief’s area of responsibility. Commander in Chief, U.S. Pacific Command
Instruction 5420.9P, “Meteorological and Oceanographic Group for the U.S. Pacific
Command,” June 24, 1997, requires the U.S. Pacific Command senior meteorological
and oceanographic officer to coordinate inter-Service meteorological and oceanographic
matters to ensure maximum use of joint support in the Pacific theater.
Objectives. The overall objective of this self-initiated series of audits was to evaluate
DoD meteorological and oceanographic services and support to determine whether the
Military Departments were providing the most cost-effective and nonduplicative
meteorological and oceanographic services and support to DoD and other governmental
agencies. Specifically, this audit focused on evaluating the Military Departments’ use
of DoD infrastructure to determine whether meteorological and oceanographic services
were provided in the most effective and efficient manner in the Pacific theater. We
also evaluated the management control program as it related to the specific audit
objective.

Results. The Navy and the Air Force were not providing regional meteorological and
oceanographic services from joint centers in the Pacific theater. In addition, other than
aviation weather support, the Navy and the Air Force provide Service-unique
meteorological and oceanographic support from separate facilities on opposite sides of
the runways at Kadena Air Base and Misawa Air Base in Japan. There were
opportunities for optimizing the use of meteorological and oceanographic resources
through collocation and consolidation. See the Finding section for details on the audit
results. The management controls we reviewed were effective in that no material
management control weakness was identified. See Appendix A for details on our
review of the management control program.

Summary of Recommendations. We recommend that the Director for Operations,
U.S. Pacific Command, in coordination with the Service Components, perform a
theater-wide evaluation to ensure Navy and Air Force meteorological and
oceanographic support meet Commander in Chief, U.S. Pacific Command, and
Service-unique mission requirements in the most efficient and effective manner. We
recommend that the Oceanographer of the Navy and the Air Force Director of Weather
reevaluate and support their analysis regarding the initiative to ensure the Navy and the
Air Force regional weather centers in Hawaii provide the most effective and efficient
meteorological and oceanographic support. We recommend the Commanding Officer,
Naval Pacific Meteorology and Oceanography Center, Yokosuka, Japan, the
Commander, 18th Operational Support Squadron, Kadena Air Base, and the
Commander, 35th Operational Support Squadron, Misawa Air Base collocate facilities
and consolidate meteorological and oceanographic support in Japan at Kadena Air Base,
and Misawa Air Base.

Management Comments. The Director of Operations, U.S. Pacific Command, did
not comment on a draft of this report. The Air Force Deputy Chief of Staff for Air and
Space Operations stated that the theatre-wide evaluation of meteorological and
Oceanographic support were Service responsibilities under Title 10 and not a
Commander in Chief function.

The Director, Environmental Compliance and Restoration Policy and the
Oceanographer of the Navy agreed to reevaluate the initiative “Reduce Duplication at
Operational Facilities – Regional Center,” but disagreed with reevaluating the Joint
Typhoon Warning Center as a model for cooperation because its mission is not easily
applied to the wide-range of services provided by Navy regional centers. They
nonconcurred with collocating facilities and consolidating meteorological and
oceanographic support at Kadena and Misawa Air Bases, stating that the Navy and the
Air Force have already completed a reduction of meteorological and oceanographic
support at the bases and further consolidation is not expected to significantly increase
the effectiveness and efficiency of support.

The Air Force Deputy Chief of Staff for Air and Space Operations nonconcurred with
reevaluating the initiatives about Air Force and Navy regional weather support in
Hawaii. He stated that the Air Force offered to evaluate the potential for combining
meteorological and oceanographic support in Hawaii in the past; however, as a result of
Air Force weather reengineering, their organizational structure changed. The Deputy
Chief of Staff also nonconcurred with the recommendations to collocate facilities and
consolidate meteorological and oceanographic support at Kadena and Misawa Air
Bases, stating that the Navy and Air Force have already reaped economies and
efficiencies from collocating aviation weather functions at the bases.



                                            ii
A discussion of management comments on the recommendations is in the Finding
section of the report, a discussion of Air Force comments on the report is in
Appendix C, and the complete text is in the Management Comments section.

Audit Response. Navy and Air Force comments were only partially responsive. We
believe advances in technology could allow the Navy and the Air Force to more fully
leverage their assets to achieve joint meteorological and oceanographic support in the
Pacific theater as was done when the Commander in Chief, U.S. Pacific Command
established the Joint Typhoon Warning Center. In light of that, the initiatives need to
be reevaluated, to include a reexamination of the original analysis. Although the Navy
and the Air Force may have previously consolidated support at Kadena and Misawa Air
Bases; the consolidation only involved similar operational aviation weather support.
We believe that all meteorological and oceanographic support should be reviewed at
Kadena and Misawa Air Bases, not just the aviation function and that further
efficiencies can be achieved through consolidation.

As a result of comments, we revised and redirected the recommendation. Therefore,
we request that Director of Operations, U.S. Pacific Command, the Commanding
Officer, Naval Pacific Meteorology and Oceanography Center, Yokosuka; the
Commander, 18th Operational Support Squadron; and the Commander,
35th Operational Support Squadron, provide comments by July 30, 2001.




                                          iii
Table of Contents

Executive Summary                                                     i


Introduction
     Background                                                       1
     Objectives                                                       3

Finding
     DoD Meteorological and Oceanographic Support in the Pacific     4

Appendixes
     A. Audit Process
          Scope                                                      16
          Methodology                                                17
          Management Control Program Review                          18
          Prior Coverage                                             18
     B. Correspondence Concerning Infrastructure in Hawaii           19
     C. Management Comments on the Finding and Recommendations and
          Audit Response                                             30
     D. Report Distribution                                          34

Management Comments
     Department of the Navy                                          37
     Department of the Air Force                                     39
Background
    Chairman of the Joint Chiefs of Staff Instruction 3810.01A, “Meteorological
    and Oceanographic Operations,” February 25, 1998 (the Instruction), requires,
    when possible, the Military Departments to assist each other in accomplishing
    meteorological and oceanographic (METOC) support in an efficient manner to
    avoid duplication and ensure commonality in the development of METOC
    capabilities. The Instruction specifies that each commander in chief is
    ultimately responsible for the direction of METOC assets within the area of
    responsibility. In addition, the Instruction also requires each commander in
    chief to designate a senior METOC officer responsible for coordinating all
    METOC operations within the commander in chief’s area of responsibility.
    Commander in Chief, U.S. Pacific Command Instruction 5420.9P,
    “Meteorological and Oceanographic Group for the U.S. Pacific Command,”
    June 24, 1997, established METOC Group, U.S. Pacific Command
    (USPACOM), and assigns responsibilities to the Services and the National
    Oceanic and Atmospheric Administration for coordinating METOC issues and
    providing METOC support in the USPACOM area of responsibility. In
    addition, Commander in Chief, USPACOM Instruction 5420.9P states that the
    USPACOM senior METOC officer, under the guidance of the Director for
    Operations, USPACOM, and in cooperation with the lead METOC
    representative from each Service and the National Oceanic and Atmospheric
    Administration, is responsible for coordinating inter-Service METOC matters to
    ensure maximum use of joint METOC support in the Pacific theater.

    Military Department Responsibilities. The Navy and the Air Force provide
    METOC support for Service-unique and joint operations in the Pacific theater
    through fundamentally similar three-tier organizational structures.

            Army. Public Law 253, “National Security Act of 1947,” chapter 343,
    July 26, 1947, assigns the Air Force responsibility for providing METOC
    support for Army operations. In the Pacific theater, the Navy and the Air Force
    are the primary providers of METOC support for DoD and U.S. national
    programs. In addition, the Navy and Air Force also provide METOC support
    to other governmental agencies and international partners. The Weather
    Officer, U.S. Army Pacific Staff, is responsible for ensuring Army METOC
    needs in the Pacific are met by the Air Force.

             Navy. The Fleet Oceanographer, Commander in Chief, U.S. Pacific
    Fleet, while not assigned to the combatant command, is responsible for
    providing METOC services, including forecasts and products tailored to specific
    maritime and littoral operating areas, in support of Navy and joint operations in
    the Pacific. The Navy primarily provides METOC services through a three-tier
    organizational structure to the Commander in Chief, USPACOM, by
    disseminating METOC products through DoD-approved communication
    systems. Strategic-level centers in the continental United States provide global
    and fine-scale numerical models and real-time oceanographic products needed
    by the three Naval Pacific Meteorology and Oceanography Centers (NPMOCs)
    at Pearl Harbor, Hawaii; San Diego, California; and Yokosuka, Japan, to
    initialize and create regional forecasts for the Pacific theater. The theater


                                        1
METOC centers tailor numerical models to ensure regional forecasts support
operational requirements for the USPACOM area of responsibility. On-board
Operational Aerography Divisions1 and Naval Pacific Meteorology and
Oceanography Detachments (NPMODs) in Japan at Naval Air Facility Atsugi,
Kadena Air Base, and Misawa Air Base are tactical units that provide on-scene
METOC support for Navy operations afloat and ashore by incorporating local
observations into regional forecasts to determine the impact METOC conditions
have on specific operations and weapon systems. The Navy, in cooperation
with the Air Force, provides resources to issue tropical cyclone forecasts and
warnings for the USPACOM area of responsibility2 at the Joint Typhoon
Warning Center (JTWC) in Hawaii.

        Air Force. The Chief, Weather Division, Directorate of Air and Space
Operations, U.S. Pacific Air Forces (PACAF) headquarters, is responsible for
providing meteorological services, including forecasts and products tailored to
specific air-land areas, in support of Army, Air Force, and joint operations in
the Pacific. The Air Force primarily provides meteorological services through a
three-tier organizational structure to the commander in chief by disseminating
meteorological products through DoD-approved communication systems.
Strategic-level production centers in the continental United States provide
numerical models and accurate real-time meteorological databases needed by the
11th Operational Weather Squadron (OWS) at Elmendorf Air Force Base,
Alaska; the 17th OWS at Hickam Air Force Base, Hawaii; and the 20th OWS at
Yokota Air Base, Japan, to generate regional forecasts in the Pacific theater.
The three theater support centers tailor regional forecasts and use products
indigenous to the operating area to provide fine-scale meteorological forecasts
needed for base resource protection and base-level support in the Pacific. The
18th Operational Support Squadron Weather Flight at Kadena Air Base, the
35th Operational Support Squadron Weather Flight at Misawa Air Base, and the
607th Weather Squadron at Yongsan Army Installation, Korea, are tactical units
that evaluate and apply OWS-generated regional forecasts to specific missions
and weapon systems to determine the impact of meteorological conditions on
local operations. The Air Force is also responsible for providing satellite
analysis and tropical cyclone reconnaissance and surveillance forecasts at the
JTWC.

1995 Base Realignment and Closure. Public Law 101-510, “Defense Base
Closure and Realignment Act of 1990” (10 U.S.C. 2687), as amended,
established the Defense Base Closure and Realignment Commission to oversee
closure and realignment of U.S. military installations. In its “DoD Base
Closure and Realignment Report,” March 1995, the Commission recommended
disestablishing the NPMOC in Guam and relocating the JTWC to NPMOC,
Pearl Harbor. Although the NPMOC in Guam was closed, the Commander in
Chief, U.S. Pacific Fleet, validated the need for continuing METOC services in
the western Pacific and the Navy redirected support and relocated resources to a
newly upgraded NPMOC in Yokosuka.

1
 Operational Aerography Divisions are assigned to ships and provide on-scene METOC services
to ensure operational safety and optimal use of Navy weapon systems.
2
 The PACOM area of responsibility includes more than 90 percent of the world’s tropical
cyclone activity.



                                          2
     Air Force Reengineering Plan. U.S. Air Force Program Action
     Directive 97-10, “Reengineering Actions for Air Force Weather,” December 1,
     1997, directs the end-to-end restructuring of Air Force weather to provide an
     improved mission focus, establish numbered Air Force-aligned OWSs, and
     improve Air Force weather capabilities. Program Action Directive 97-10 states
     that Air Force weather reengineering occurred because of decreased personnel
     resources and experience levels at weather stations, different support structures
     required to provide meteorological services in peacetime and wartime,
     inadequate training, and less-than-optimal organizational career paths. Program
     Action Directive 97-10 also states that Air Force weather reengineering was
     needed to integrate Air Force weather into joint operations and enable Air Force
     weather to provide products and services that meet specific operator needs.


Objectives
     This report is one in a series evaluating the effectiveness and efficiency of DoD
     METOC support provided by the Military Departments to DoD and other
     governmental agencies. The overall objective of this self-initiated series of
     audits was to evaluate DoD METOC services and support to determine whether
     the Military Departments were providing the most cost-effective and
     nonduplicative METOC support to DoD and other governmental agencies.
     Specifically, this audit focused on evaluating the Military Departments’ use of
     DoD infrastructure to determine whether METOC services were provided in the
     most effective and efficient manner in the Pacific theater. We also evaluated the
     management control program as it related to the specific audit objective. See
     Appendix A for a discussion of the audit scope and methodology, our review of
     the management control program, and prior coverage.




                                         3
            DoD Meteorological and Oceanographic
            Support in the Pacific
            The Navy and the Air Force were not providing regional METOC
            services from joint METOC centers in the Pacific theater. In addition,
            other than aviation weather support, the Navy and the Air Force provide
            Service-unique METOC support from separate facilities on opposite
            sides of the runways at Kadena and Misawa Air Bases in Japan.
            METOC Group, USPACOM, was established to coordinate METOC
            issues that affect operations within the Commander in Chief,
            USPACOM, area of responsibility. However, METOC Group,
            USPACOM, did not evaluate, in coordination with the Service
            Components, whether the 17th OWS and the planned 20th OWS could be
            collocated at existing DoD facilities already providing similar METOC
            services, or at a single location in the Pacific theater, and overlapping
            METOC functions consolidated. In addition, the Oceanographer of the
            Navy and the Air Force Director of Weather did not fully consider
            collocating facilities and improving operational efficiency by
            consolidating METOC functions at Kadena and Misawa Air Bases. As a
            result, the Navy and the Air Force were not evaluating opportunities for
            providing METOC support in the most efficient possible manner.


Navy and Air Force Cooperative Initiatives
     Navy-Air Force Agreement. On January 13, 1993, the Oceanographer of the
     Navy and the Air Force Director of Weather signed a memorandum of
     agreement, “Navy-Air Force Cooperation Implementation Action
     Memorandum” (NAVAF Agreement), to evaluate potential areas of cooperation
     between the Navy and the Air Force and improve meteorological support
     problems identified during Operation Desert Storm. The NAVAF Agreement
     identifies 19 initiatives, including reducing overlapping base aviation and theater
     meteorological support and examining the JTWC as a model for cooperation to
     support military operations in the Pacific theater. Of the 19 initiatives, 16 were
     accepted for implementation, 2 were rejected, and 1 was returned for further
     investigation. As of March 2001, only five initiatives had been completed.

             Reduction of Base Aviation Weather Support. The NAVAF
     Agreement identifies Andrews Air Force Base, Maryland, and Kadena Air Base
     as two locations where the Navy and the Air Force provide overlapping base-
     level aviation forecasts in support of military operations. The NAVAF
     Agreement identifies that, at Misawa Air Base, the Air Force provides aviation
     forecasts for all airfield operations in addition to other Air Force-unique
     meteorological services needed to meet mission requirements while the Navy
     provides METOC services other than aviation weather support to meet its
     mission requirements. The NAVAF Agreement recommends that the Navy and
     the Air Force require the Service owning the base to be responsible for
     providing all aviation forecasts needed to support local operations in addition to
     Service-unique support needed to meet mission requirements. With the


                                          4
exception of aviation forecasts, the NAVAF Agreement states that the base
tenant (the Navy) will continue to provide Service-unique METOC support.
The Navy and the Air Force accepted the initiative and, as a result, the Air
Force combat weather teams at Andrews Air Force Base and Kadena Air Base
provide aviation forecasts for all DoD operations at those bases.

        Reduce Duplication at Operational Facilities Regional Centers. The
NAVAF Agreement identifies four pairs of Navy and Air Force operational
METOC centers, including the Naval Western Oceanography Center and the
Air Force Pacific Weather Support Unit in Oahu, Hawaii, as one of the potential
operational METOC centers to be consolidated into a multi-Service METOC
center. However, that initiative was rejected because the Services concluded
that the missions and areas of responsibility for the METOC centers under
consideration were too different to warrant consolidating theater METOC
support. In addition, at least one of the Navy and Air Force METOC centers
under consideration had either downsized its original mission or closed.
Although the four pairs of Navy and Air Force operational METOC centers
identified for potential consolidation in the NAVAF agreement had been either
downsized or closed, the validity of the concept of consolidating multi-Service
METOC centers continues to be valid.

        JTWC Model. The NAVAF Agreement identifies that the JTWC is an
example of long-term cooperation between the Navy and the Air Force for
providing joint METOC support. The NAVAF Agreement initiative states that
the Navy and the Air Force should examine whether the JTWC is a model for
future cooperative efforts between the Services; however, the initiative was
rejected. As a result of examining the initiative, the Navy and Air Force
determined that the JTWC is not a suitable prototype for future cooperative
efforts unless organizational changes occur. As of May 2001, the Navy and the
Air Force had not provided documentation to support their conclusion that the
JTWC was an inadequate model for future joint METOC cooperative efforts.

The NAVAF Agreement provides a framework for a long-term cooperative
effort with the goal of identifying ways in which the Navy and the Air Force can
provide METOC support with greater efficiency. The two initiatives that were
rejected should be reevaluated.

Other Cooperative Initiatives. In a January 1998 memorandum, “Co-Location
of Hawaiian Regional Weather Centers,” the Air Force requested Navy support
in exploring the possibility of collocating Navy and Air Force centers in Hawaii
to provide cooperative METOC support for military operations throughout the
USPACOM area of responsibility. The Navy did not respond to the Air Force
memorandum. In a second memorandum, “NAVAF 21 Studies,” April 2000,
the Air Force expressed a continued need to explore the possibility of
establishing a more robust joint METOC center. In response to the April 2000
memorandum, the Navy replied to the Air Force Director of Weather by
memorandum, “NAVAF 21 Studies,” May 17, 2000, stating that although DoD
METOC support must cooperatively progress, the Navy did not plan to develop
a joint METOC center in the near future. The Navy and the Air Force did not
further evaluate the feasibility of developing a joint METOC center in Hawaii.




                                   5
Regional METOC Support
    The Navy and the Air Force were not providing regional METOC services from
    joint METOC centers in the Pacific theater because METOC Group,
    USPACOM, had not evaluated, in coordination with the Service Components,
    whether the 17th OWS and the planned 20th OWS could be collocated at
    existing DoD facilities already providing similar METOC services, or at a
    single location in the Pacific theater, and overlapping METOC functions
    consolidated. During the audit, we visited four of six regional support centers
    in the Pacific: the NPMOCs in Pearl Harbor and Yokosuka, the 17th OWS,
    and the planned 20th OWS.3 We did not visit NPMOC, San Diego, or the
    11th OWS. METOC Group, USPACOM, was established to coordinate
    METOC issues that affect operations within the Commander in Chief,
    USPACOM, area of responsibility.

    Theater METOC Centers in the Pacific. The “Naval Meteorology and
    Oceanography Command Strategic Plan,” May 1997, requires Navy METOC
    support to ensure readiness of naval forces by aligning theater METOC support
    in fleet concentration areas. Program Action Directive 97-10 requires the
    Air Force to provide meteorological services through an improved operational
    and organizational structure by transferring routine, 24-hour forecasting,
    aircrew aviation briefings, and selected meteorological advisory and warning
    responsibilities from tactical- to operational-level structures.

            METOC Support in Hawaii. Collocating facilities and consolidating
    overlapping METOC functions of NPMOC/JTWC, Pearl Harbor, and the
    17th OWS could result in DoD resources being used in a more efficient manner.
    NPMOC/JTWC, Pearl Harbor, and the 17th OWS provide a full spectrum of
    regional METOC services for DoD and other governmental agencies.
    NPMOC/JTWC provides acoustic predictions for maritime operations, transient
    aircraft briefings, deployable mobile environmental teams,4 local area forecasts,
    optimum path aircraft routing system services, and sea advisories and warnings
    for Navy, Coast Guard, and joint operations. PACAF Programming
    Plan 98-02, “Reengineering Actions for Air Force Weather,” January 10, 2001,
    requires the 17th OWS to attain initial operational capability for providing
    meteorological support for the 13th Air Force, units assigned to Andersen
    Air Base, and the newly established 502nd Air Operations Group at Hickam
    Air Force Base by July 2001. In addition, the 17th OWS will be required to
    provide air refueling, drop zone, landing zone, target, and transient aircraft
    forecasts; aviation weather support for the newly established PACAF
    Deployable Air Operations Center; and terminal aerodrome forecasts5 for Army,
    Air Force, and joint operations. Although NPMOC is collocated with the


    3
        At the time of our visit, the 17th and 20th OWSs were not operational.
    4
     Mobile environmental teams are forward-deployed components that provide short-term,
    on-scene METOC services to ships and organizations that are not permanently assigned METOC
    personnel.
    5
     Terminal aerodrome forecasts are concise statements of expected meteorological conditions at
    an airfield during a specified period (usually 24 hours).



                                                  6
JTWC, METOC Group, USPACOM, did not evaluate, in coordination with the
Service Components, whether the 17th OWS could be collocated with
NPMOC/JTWC and overlapping METOC functions consolidated.

On February 1, 2001, the Deputy Assistant Inspector General for Auditing,
DoD, issued a memorandum to the Commander in Chief, USPACOM,
pertaining to potential duplication of weather infrastructure and services in the
Pacific (see Appendix B). Specifically, PACAF did not coordinate with the
U.S. Pacific Fleet during Air Force reengineering to determine whether the
mission of the 17th OWS could be performed at NPMOC/JTWC. As a result,
the 17th OWS could duplicate weather infrastructure and forecasting capabilities
already provided by NPMOC/JTWC. On March 2, 2001, the Commander in
Chief, USPACOM, issued a memorandum, “USCINCPAC Response to the
Department of Defense Inspector General Evaluation of Weather Support in the
Pacific Theater,” stating that given current equipment, existing infrastructure,
and personnel at NPMOC/JTWC, Pearl Harbor, it is appropriate for the Air
Force to establish the 17th OWS. However, the Commander in Chief,
USPACOM, also states that from an efficiency perspective, collocating Navy
and Air Force METOC operations in Hawaii merits further study. In addition,
the Commander in Chief, USPACOM, states that the JTWC is a good location
to develop and expand inter-Service synergy. Therefore, the Commander in
Chief, USPACOM, tasked his staff to determine the requirements and develop a
proposal for the Joint Staff to establish a cooperative METOC architecture in
Hawaii and review additional opportunities to expand inter-Service synergy
throughout the USPACOM area of responsibility. Although the Commander in
Chief, USPACOM, states that the Commander, PACAF, conducted an
evaluation to determine the validity of a separate weather facility at Hickam
Air Force Base, the Commander, PACAF, states that his staff was in the
process of preparing an evaluation of weather support in the Pacific. As of
May 2001, we had not been provided any documentation to support that an
evaluation was conducted by the Commander, PACAF, to support the validity
of a separate weather facility at Hickam Air Force Base.

        METOC Support in Japan. Collocating facilities and consolidating
overlapping METOC functions of NPMOC, Yokosuka, and the planned
20th OWS could result in DoD resources being used in a more efficient manner.
NPMOC, Yokosuka, and the planned 20th OWS provide a full spectrum of
regional METOC services for DoD and other governmental agencies. NPMOC,
Yokosuka, provides acoustic predictions for maritime operations, deployable
mobile environmental teams, local area forecasts, optimum path aircraft routing
system services, optimum track ship routing6 services, and sea advisories and
warnings for Navy and joint operations. Program Action Directive 97-10
directs the Air Force to establish the 20th OWS and PACAF Programming
Plan 98-02 requires the 20th OWS to attain initial operational capability for
providing theater meteorological support for the 5th Air Force area of
responsibility by April 2001. In addition, the planned 20th OWS will be



6
 Optimum track ship routing is a Navy advisory service designed to minimize en route time and
fuel consumption while ensuring minimal risk from damage caused by tropical storms, high
seas, and sea ice.



                                          7
required to provide air refueling, drop zone, landing zone, target, and transient
aircraft forecasts; and terminal aerodrome forecasts for Army, Air Force, and
joint operations.

Program Action Directive 97-10 also directs the Air Force to designate the
607th Weather Squadron as an OWS responsible for providing regional
meteorological advisories, forecasts, and warnings in support of Army,
Air Force, and joint operations within the 7th Air Force area of responsibility.
However, during the audit, the Air Force Director of Weather and the PACAF
Director of Air and Space Operations initiated a plan to consolidate regional
forecast responsibilities of the 607th Weather Squadron and the planned
20th OWS in an effort to more efficiently use DoD resources. As regional
OWSs were established, the Air Force Director of Weather recognized that a
more efficient organizational structure could be achieved by consolidating the
functions of the regional centers in Japan and Korea. PACAF Programming
Plan 98-02 directs the 607th Weather Squadron to revert back to its former
status as a combat weather team and provide tactical support to the
607th Air Support Operations Group in Korea.

As a result of the Air Force plan to consolidate regional forecasting
responsibilities of the 607th Weather Squadron and the 20th OWS, the
20th OWS will also be responsible for providing regional meteorological
forecasting services for the 7th Air Force area of responsibility. Although
NPMOC, Yokosuka, is located in close proximity to the planned 20th OWS,
METOC Group, USPACOM, did not evaluate, in coordination with the Service
Components, whether the planned 20th OWS could be collocated with NPMOC,
Yokosuka, or at a single location, and overlapping METOC functions
consolidated.

Navy realignment of regional METOC support in the Pacific theater occurred
primarily because of recommendations from the 1995 DoD Base Closure and
Realignment Report and subsequent actions taken by the Navy METOC
community. As a result, regional METOC support for the U.S. Pacific Fleet is
provided at the Pearl Harbor and Yokosuka NPMOCs. At the time the Navy
realigned regional METOC support in the Pacific theater to fleet concentration
areas, the Air Force did not provide meteorological support from forward-
deployed theater centers. Program Action Directive 97-10 directs the Air Force
to establish the 17th OWS and the 20th OWS in the Pacific theater to provide
forward-deployed theater support. As a result, the regional Air Force OWSs
will be located in close proximity to NPMOCs; however, METOC Group,
USPACOM, had not evaluated, in coordination with the Service Components,
whether the 17th OWS and the planned 20th OWS could be collocated at
existing DoD facilities or at a single location. Adequate and continuous
cooperation between the Navy and the Air Force is needed to reduce METOC
infrastructure, consolidate overlapping functions, and provide effective and
efficient METOC services in Hawaii and Japan.




                                    8
Base-Level METOC Support
    At NPMOD Kadena and Misawa the Navy and the Air Force had collocated
    aviation weather support. However, the Navy and the Air Force continued to
    provide Service-unique METOC support from separate facilities on opposite
    sides of the runways at Kadena and Misawa Air Bases in Japan because the
    Oceanographer of the Navy and the Air Force Director of Weather did not fully
    consider collocating facilities and improving operational efficiency by
    consolidating METOC functions at Kadena and Misawa Air Bases. We visited
    three Naval NPMOC, Yokosuka, detachments in the Pacific: the NPMODs in
    Atsugi, Kadena, and Misawa. NPMOD Atsugi is the only METOC detachment
    at that military installation. However, Kadena and Misawa Air Bases both had
    Navy and Air Force METOC units.

    METOC Support at Kadena Air Base. NPMOD Kadena and the
    18th Operational Support Squadron Weather Flight provide mission-specific
    METOC services for Service-unique and joint operations at Kadena Air Base.
    NPMOD Kadena provides climatological studies, surface and undersea warfare
    support briefings for local operations, and acoustic range predictions and sensor
    performance data for the Japan Maritime Self Defense Force and maritime
    patrol aircraft operating from Naval Air Facility Kadena. In addition,
    NPMOD Kadena provides recommendations about the effects of METOC
    conditions on base operations to the Commander, Fleet Activities Okinawa.
    The 18th Operational Support Squadron Weather Flight provides
    recommendations about the effects of meteorological conditions on specific
    missions and weapon systems for the 909th Air Refueling Squadron, the
    82nd Reconnaissance Squadron, and the 44th and 67th Fighter Squadrons. In
    addition, the 18th Operational Support Squadron Weather Flight provides
    meteorological observations for all airfield operations, aircraft flight briefings,
    and tailored terminal aerodrome forecasts needed by Navy, Air Force, and
    transient aircrews for takeoffs and landings.

    METOC Support at Misawa Air Base. NPMOD Misawa and the
    35th Operational Support Squadron Weather Flight had consolidated aviation
    weather specific support; however, mission-specific METOC services for
    Service-unique and joint operations at Misawa Air Base where not collocated.
    NPMOD Misawa provides acoustic range predictions and recommendations
    about the effects of METOC conditions on maritime patrol aircraft operating
    from Naval Air Facility Misawa, and it provides mine, surface, and undersea
    warfare briefings for local operations. The 35th Operational Support Squadron
    Weather Flight provides recommendations about the effects of meteorological
    conditions on specific operations for the 3rd Space Surveillance Squadron, the
    13th and 14th Fighter Squadrons, and joint air operations of the Air Force and
    the Japan Air Self Defense Force. In addition, the 35th Operational Support
    Squadron Weather Flight provides aviation flight briefings and tailored terminal
    aerodrome forecasts needed by Navy, Air Force, and transient aircrews for
    takeoffs and landings. In accordance with the December 6, 1988, memorandum
    of agreement between the 432nd Tactical Fighter Wing (now the 35th Fighter
    Wing) and the Japan Air Self Defense Force at Misawa Air Base, “Airfield
    Operations,” the Japan Air Self Defense Force provides meteorological
    observations for all airfield operations at Misawa Air Base.


                                         9
    According to the NAVAF Agreement, the Air Force is responsible for
    providing all aviation forecasts at Kadena and Misawa Air Bases because the
    bases are Air Force bases. Although the Navy and the Air Force have
    implemented the NAVAF Agreement initiative to reduce overlapping base
    aviation forecasts by consolidating similar operational aviation weather support
    at one location, they continue to provide Service-unique METOC support from
    separate facilities on opposite sides of the runways at Kadena and Misawa Air
    Bases. According to officials at NPMOD Kadena, Navy and Air Force
    METOC personnel have discussed the possibility of collocating facilities and
    consolidating functions; however, as of May 2001, an official plan had not been
    coordinated with the Oceanographer of the Navy or the Air Force Director of
    Weather.


Optimum Use of DoD METOC Resources
    The Navy and the Air Force could increase operational efficiency by using
    equipment, infrastructure, and personnel in a more effective manner when
    providing METOC support from the six regional centers in the Pacific theater
    and the five base-level organizations visited in Japan.

    Military Department Strategic METOC Goals. The “Naval Meteorology and
    Oceanography Command Strategic Plan” directs the Navy to provide METOC
    services that enhance warfighting capabilities while ensuring optimum use of
    METOC resources. The “Air Force Weather Strategic Plan,” August 1, 1997
    (updated June 28, 2000), states that the Air Force must continuously leverage
    capabilities developed throughout the METOC community to meet future
    requirements and improve forecast accuracy for the warfighter. In December
    1997, the Air Force initiated a total end-to-end restructuring of METOC support
    for Army and Air Force operations, beginning with an improved operational
    concept and organizational structure. Program Action Directive 97-10
    implements the “Air Force Weather Strategic Plan” by reducing the amount of
    equipment and the number of personnel at combat weather teams and
    redistributing those resources to OWSs.
             Personnel Resources at Regional Centers in the Pacific. Collocating
    facilities and consolidating overlapping METOC functions at NPMOC,
    Yokosuka, and the planned 20th OWS could result in DoD resources being used
    in a more efficient manner. Navy and Air Force regional forecasting centers in
    the Pacific provide METOC services in support of DoD operations 24 hours a
    day, 7 days a week, with limited personnel. At NPMOC, Yokosuka, 88 Navy
    personnel provide anti-submarine warfare briefings; aviation forecasts;
    deployable, on-scene METOC services for the 7th Fleet; and optimum track
    ship routing services. When the planned 20th OWS is fully operational,
    58 Air Force personnel, including 23 personnel reassigned from the
    607th Weather Squadron, will provide regional aviation forecasts and tailored
    weather advisories and warnings for the 5th and 7th Air Force areas of
    responsibility. However, until an evaluation is performed to determine whether
    NPMOC, Yokosuka, and the planned 20th OWS could be collocated at existing
    DoD facilities already providing similar services, or at a single location, the
    most efficient use of resources is unknown. By evaluating the possibility of


                                       10
collocating facilities and consolidating overlapping METOC functions of
regional METOC centers in Japan, the Navy and the Air Force can ensure
mission requirements of the Commander in Chief, USPACOM, are efficiently
and effectively achieved by leveraging each other’s resources.

         METOC Equipment at Regional Centers in the Pacific. Collocating
facilities and consolidating overlapping METOC functions of NPMOC/JTWC,
Pearl Harbor, and the 17th OWS could result in a more optimal use of
resources. Navy and Air Force regional forecasting centers in the Pacific
collect, store, process, and disseminate METOC information and products
through Service-unique and common DoD communication systems and
equipment. At NPMOC/JTWC, Pearl Harbor, the Navy uses 91 worldwide
Automated Surface Observing System sensors to collect dew point,
precipitation, temperature, visibility, and wind observations needed to provide
aviation forecasts. The Navy also uses a Distributed Atmospheric Mesoscale
Prediction System workstation to obtain real-time cloud visibility, radar,
temperature, and wind observations needed to form accurate 24-hour forecasts.
In addition, six METOC Integrated Data Display Systems process optimum path
aircraft routing system information, radar data, and satellite imagery and display
and disseminate alphanumeric METOC data needed to support naval and
transient aircraft in the Pacific theater.

The 17th OWS, when fully operational, will use the OWS Production System
(phase II) to enhance computer hardware and application software used by
forecasters to access timely meteorological data and to produce and disseminate
forecasts. The Air Force plans to install nine OWS Production System
(phase II) workstations, including cable, network switches, and servers, at the
17th OWS and two additional systems and all associated equipment at
NPMOC/JTWC, Pearl Harbor. In addition, two Automated Weather
Distribution Systems that are needed by the Air Force to provide worldwide,
computerized forecasting, analysis, and aircrew briefings will be installed at the
17th OWS.

However, until an evaluation is performed to determine whether the 17th OWS
could be collocated at the NPMOC/JTWC, Pearl Harbor, how the equipment
could be used most efficiently was unknown. By evaluating the possibility of
collocating regional METOC centers in Hawaii and consolidating overlapping
METOC functions, the Navy and the Air Force can ensure mission requirements
of the Commander in Chief, USPACOM, are met efficiently and effectively by
leveraging each other’s resources.

The Navy and the Air Force provide regional METOC services from six
regional centers in the Pacific theater. We reviewed METOC support at four of
the six regional centers. At those four regional METOC centers, METOC
Group, USPACOM, had not evaluated, in coordination with the Service
Components, whether the reengineered Air Force operational weather structure
could be collocated at existing DoD facilities already providing similar services,
or at a single location, and overlapping METOC functions consolidated. The
remaining two regional METOC centers, NPMOC, San Diego, and 11th OWS,
should also be reviewed to determine whether the most efficient use of DoD
resources was achieved. As a result, an overall evaluation of Pacific theater
METOC support should be performed to ensure joint regional and


                                    11
    Service-unique requirements are effectively and efficiently met. In addition, the
    Navy and the Air Force also should review collocation of facilities and
    consolidation of METOC support functions at base-level organizations in Japan
    at Kadena and Misawa Air Bases. By reducing DoD METOC infrastructure, a
    more optimal use of limited equipment and personnel resources could be
    achieved.


Future METOC Support Considerations
    Chairman of the Joint Chiefs of Staff Instruction 3810.01A requires, when
    possible, that the Military Departments assist each other in accomplishing
    METOC support in an efficient manner to avoid duplication. To ensure the
    optimum use of warfighter capabilities and resources, the Navy and the Air
    Force should continually seek more efficient and effective methods of providing
    METOC support. In May 1995, DoD, the National Aeronautics and Space
    Administration, and the National Oceanic and Atmospheric Administration
    began to consolidate7 separate civilian and military meteorological satellite
    systems into a single national system: the National Polar-Orbiting Operational
    Environmental Satellite System. The National Polar-Orbiting Operational
    Environmental Satellite System integrates advances in computer technology,
    modernized communication systems, and satellite operations by establishing a
    single, converged, operational system that can reduce overlap while continuing
    to satisfy unique requirements of the civil and national security communities.
    By consolidating separate, Service-unique regional centers into joint, theater
    METOC centers, the Navy and the Air Force have an opportunity to reduce
    overlap, leverage METOC resources, and promote joint METOC support just as
    DoD has done by converging separate meteorological satellite systems into the
    National Polar-Orbiting Operational Environmental Satellite System.


Recommendations, Management Comments, and Audit
  Response
    Renumbered, Revised, and Redirected Recommendations. Summaries of
    management comments on the finding and recommendations and our audit
    responses are in Appendix C. As a result of management comments, we
    renumbered draft Recommendation 1.a., now Recommendation 1. We revised
    and renumbered draft Recommendation 1.b., now Recommendation 3., and
    redirected it to the Commanding Officer, NPMOC, Yokosuka, and the
    Commander, 18th Operational Support Squadron. We revised and renumbered
    draft Recommendation 1.c., now Recommendation 4., and redirected it to the
    Commanding Officer, NPMOC, Yokosuka, and the Commander,
    35th Operational Support Squadron. We revised and redirected
    Recommendations 3. and 4. to be more specific and to be


    7
    Mandated by Presidential Decision Directive, National Science and Technology Council – 2,
    May 5, 1994.



                                            12
implemented by the commands involved rather than at the headquarters level.
We also revised draft Recommendation 2. to clarify the intent of the
recommendation.

1. We recommend that the Oceanographer of the Navy and the Air Force
Director of Weather reevaluate and support the analysis regarding the
initiatives “Examine the Joint Typhoon Warning Center as a Model for
Cooperation” and “Reduce Duplication at Operational Facilities – Regional
Centers,” to ensure the Navy and the Air Force provide DoD the most
effective and efficient meteorological and oceanographic support.

Navy Comments. The Director, Environmental Compliance and Restoration
Policy, in coordination with the Oceanographer of the Navy, nonconcurred with
reevaluating the initiative “Examine the Joint Typhoon Warning Center as a
Model for Cooperation,” stating that the mission of the JTWC is focused on
tropical storm support and its concept of operation is not easily applied to the
wide range of METOC support provided by Navy regional centers. However,
they concurred with reevaluating the initiative “Reduce Duplication at
Operational Facilities – Regional Centers.”

Air Force Response. The Air Force Deputy Chief of Staff for Air and Space
Operations nonconcurred, stating that the Air Force had offered to evaluate the
potential for combining METOC support in Hawaii in 1998 and again in 2000;
however, as a result of Air Force weather reengineering, its organizational
structure changed. In addition, the Air Force stated that differences in the Navy
and the Air Force organizational command and control structure would pose a
command and control challenge for Navy and Air Force METOC providers.

Audit Response. We consider the Navy and the Air Force comments partially
responsive to the intent of the recommendation. Although the Navy stated that
the JTWC concept of operations is not easily applied to the wide range of
METOC support and services provided by regional centers, one of the
19 NAVAF Agreement initiatives stated that the JTWC should be examined as a
“model” for future cooperation between the Services. As of May 2001, no
evidence existed to support that JTWC is not a model for cooperative efforts
between the Services. The intent of the recommendation was to review
collocating METOC activities and combine overlapping weather support
functions in those geographic areas where efficiencies could be achieved without
impacting operational weather support to the Services and the warfighter. We
believe it would be beneficial to the Department if the Air Force would
reevaluate the initiative about reducing duplication as the Navy suggested. We
renumbered draft Recommendation 1.a., now Recommendation 1., and request
that the Navy and the Air Force reconsider their position and provide additional
comments on the final report.

2. We recommend that the Director for Operations, U.S. Pacific
Command, in coordination with the Service Components, perform a
theater-wide evaluation of meteorological and oceanographic support to
ensure Navy and Air Force meteorological and oceanographic services meet
Commander in Chief, U.S. Pacific Command, and Service-unique mission
requirements in the most efficient and effective manner by:



                                   13
       a. Evaluating the feasibility of forming a joint meteorological and
oceanographic center in Hawaii to ensure joint requirements are efficiently
and effectively met by collocating the Naval Pacific Meteorology and
Oceanography Center and Joint Typhoon Warning Center, Pearl Harbor,
and the Air Force 17th Operational Weather Squadron at Hickam Air
Force Base and by consolidating overlapping meteorological and
oceanographic functions.

       b. Evaluating the feasibility of forming a joint meteorological and
oceanographic center in Japan to ensure joint requirements are efficiently
and effectively met by collocating the Naval Pacific Meteorology and
Oceanography Center, Yokosuka, and the planned Air Force
20th Operational Weather Squadron at Yokota Air Base and by
consolidating overlapping meteorological and oceanographic functions.

       c. Reviewing meteorological and oceanographic services provided at
the Naval Pacific Meteorological and Oceanographic Center, San Diego,
California, and the 11th Operational Weather Squadron at Elmendorf Air
Force Base, Alaska.

Management Comments Required. The Director of Operations, U.S. Pacific
Command, did not comment on a draft of this report. Therefore, we request
that the Director of Operations, U.S. Pacific Command, provide comments on
the final report.

Navy Comments. The Director, Environmental Compliance and Restoration
Policy, in coordination with the Oceanographer of the Navy, concurred stating
that the need exists for a theater-wide evaluation of METOC support in the
Pacific. Further, the Services should be responsible for ensuring that their
METOC support meets Commander in Chief, USPACOM, and Service-unique
mission requirements in the most efficient and effective manner.

Air Force Comments. The Air Force Deputy Chief of Staff for Air and Space
Operations nonconcurred stating that the Services, and not the unified
commander, are responsible for evaluating whether METOC services meet
Commander in Chief, USPACOM, and Service-unique mission requirements in
the most efficient and effective manner. The recommendation runs counter to
Title 10 United States Code that states this is a Services responsibility.

Audit Response. In response to Navy and Air Force comments, we revised
draft Recommendation 2. by recommending that the action be coordinated with
the Service Components. Therefore, we request the Navy and the Air Force
provide comments in response to the final report.

3. We recommend that the Commanding Officer, Naval Pacific
Meteorology and Oceanography Center, Yokosuka, and the Commander,
18th Operational Support Squadron, determine whether further operational
efficiencies, other than aviation weather support, can be achieved by




                                  14
collocating facilities and consolidating meteorological and oceanographic
support provided by the Naval Pacific Meteorology and Oceanography
Detachment and the Air Force 35th Operational Support Squadron
Weather Flight at Kadena Air Base, Japan.

4. We recommend that the Commanding Officer, Naval Pacific
Meteorology and Oceanography Center, Yokosuka, and the Commander,
35th Operational Support Squadron, determine whether further operational
efficiencies, other than aviation weather support, can be achieved by
collocating facilities and consolidating meteorological and oceanographic
support provided by the Naval Pacific Meteorology and Oceanography
Detachment and the Air Force 35th Operational Support Squadron
Weather Flight at Misawa Air Base, Japan.

Navy Comments. The Director, Environmental Compliance and Restoration
Policy, in coordination with the Oceanographer of the Navy, nonconcurred,
stating that the Navy and the Air Force have already completed a reduction of
METOC support at Kadena Air Base and Misawa Air Base. In addition, further
consolidation of METOC support is not expected to significantly increase the
effectiveness and efficiency of support but, rather, may negatively impact flight
crew operations. Further, any decision on further consolidation is best left to
the Service Components and their subordinate units on a case-by-case basis.

Air Force Comments. The Air Force Deputy Chief of Staff for Air and Space
Operations nonconcurred, stating that the Navy and the Air Force have already
reaped economies and efficiencies from collocating aviation weather functions at
Kadena Air Base and Misawa Air Base. The Air Force also stated that the
Services should determine efficiencies that may be achieved by consolidation.

Audit Response. Although the Navy and the Air Force nonconcurred, their
comments are partially responsive to the intent of the recommendation. The
Navy and the Air Force stated that a joint review of METOC support was
conducted; however, the review only evaluated consolidating similar operational
aviation weather support at Kadena Air Base and Misawa Air Base. Although
the Navy stated that further consolidation could negatively impact flight crew
operations, until Navy and Air Force subordinate units evaluate collocating and
further consolidating METOC support, the impact to Navy and Air Force
operational units is unknown. The intent of the recommendation was to
determine whether further operational efficiencies, other than aviation weather
support, could be achieved by collocating and consolidating METOC functions
at Kadena Air Base and Misawa Air Base. As a result of Navy and Air Force
comments, we revised, redirected, and renumbered draft Recommendation 1.b.,
now Recommendation 3, and draft Recommendation 1.c., now
Recommendation 4. We request that the Commanding Officer, Naval Pacific
Meteorology and Oceanography Center, Yokosuka, the Commander,
18th Operational Support Squadron, and the Commander 35th Operational
Support Squadron determine whether further operational efficiencies, other than
aviation weather support, can be achieved by collocating facilities and
consolidating METOC functions at Kadena Air Base and Misawa Air Base and
provide comments in response to the final report.




                                   15
Appendix A. Audit Process

Scope
    We reviewed and evaluated whether DoD, Joint Staff, and Military Department
    guidance and memorandums implemented from July 1947 through March 2001
    were adequate to ensure that the Military Departments provided METOC
    support efficiently and effectively. We reviewed “Joint Vision 2020,” June
    2000; the “DoD Base Closure and Realignment Report,” March 1995; the
    “Naval Meteorology and Oceanography Command Strategic Plan,” May 1997;
    the NAVAF Agreement, January 13, 1993; the “Air Force Weather Strategic
    Plan,” June 28, 2000; the Air Force Program Action Directive 97-10,
    “Reengineering Actions for Air Force Weather,” December 1, 1997; and the
    PACAF Programming Plan 98-02, “Reengineering Actions for Air Force
    Weather,” January 10, 2001. We reviewed the processes used by the Military
    Departments to align METOC support with their primary customers. In
    addition, we reviewed interagency and inter-Service agreements to determine
    whether the Navy and the Air Force provided overlapping METOC services.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal:

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)
           FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (01-DoD-2.3)

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD
    Infrastructure Management high-risk area.




                                       16
Methodology
    We analyzed METOC requirements and inter-Service memorandums used by
    the Navy and the Air Force to identify METOC products and services needed to
    support the warfighter in the Pacific by:

           •   conducting interviews with officials from USPACOM; U.S. Forces
               Japan; U.S. Forces Korea; the Commander in Chief, U.S. Pacific
               Fleet; PACAF; the Office of the Army Deputy Chief of Staff for
               Intelligence; the Oceanographer of the Navy; the Air Force Director
               of Weather; the Air Force Weather Agency; and the Joint Staff;

           •   visiting the Naval Meteorology and Oceanography Command; the
               NPMOCs at Pearl Harbor and Yokosuka; the NPMODs at Kadena
               and Misawa Air Bases; the JTWC; the 17th and the planned 20th
               OWSs; the 607th Weather Squadron at Yongsan Army Installation;
               the Air Force 18th Operational Support Squadron Weather Flight at
               Kadena Air Base; the 35th Operational Support Squadron Weather
               Flight at Misawa Air Base; and the Combat Air Forces Command
               and Control System Program Office;

           •   reviewing personnel statistics to determine the distribution of
               METOC personnel at each of the locations visited in USPACOM;

           •   identifying communication systems needed to transmit accurate,
               reliable, and timely METOC products required to support the
               warfighter;

           •   reviewing Navy and Air Force coordination efforts to determine
               whether METOC facilities could be collocated and overlapping
               support functions consolidated; and

           •   evaluating methods used by the Navy and the Air Force to align
               theater METOC support centers with their customers.

    Audit Type, Dates, and Standards. We performed this program audit from
    September 2000 through March 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary. We did not use computer-processed data to
    perform this audit. Although we did our work in accordance with generally
    accepted Government auditing standards, we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                      17
Management Control Program Review
     DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance programs are
     operating as intended and to evaluate the adequacy of the controls.

     Scope of Review of the Management Control Program. We reviewed the
     adequacy of the Military Departments’ management controls related to METOC
     support in the Pacific theater. Specifically, we reviewed the coordination
     process between the Navy and the Air Force to determine whether DoD
     infrastructure was effectively and efficiently used to provide METOC services.
     Because we did not identify a material management control weakness, we did
     not assess management’s self-evaluation.

     Adequacy of Management Controls. The management controls for the
     Military Departments were adequate in that we identified no material
     management control weaknesses.



Prior Coverage
     During the last 5 years, the only coverage of the DoD weather program has
     been our current series of reviews. The following final reports have been issued
     in this series. Unclassified Inspector General, DoD, reports can be accessed
     over the Internet at http://www.dodig.osd.mil/audit/reports.



Inspector General, DoD

     Inspector General, DoD, Report No. D-2001-133, “Deliberate Planning for
     Meteorological and Oceanographic Operations (U),” June 1, 2001

     Inspector General, DoD, Report No. D-2001-018, “Management and Oversight
     of the DoD Weather Program,” December 14, 2000




                                        18
Appendix B. Audit Process




                      19
20
21
22
23
24
25
26
27
28
29
Appendix C. Management Comments on the
            Finding and Recommendations and
            Audit Response
    This section addresses comments provided by the Air Force Deputy Chief of
    Staff Air and Space Operations to the draft report. The Air Force comments
    have been extracted and are presented here with the associated audit responses.
    The Air Force comments are presented by topic.



NAVAF Initiatives
    Air Force Comments. The Air Force stated that the report recommendations
    that the Oceanographer of the Navy and the Air Force Director of Weather
    reevaluate closed NAVAF initiatives, failed to take into account the
    organizational and command structures in the Pacific Theater. The Air Force
    stated that the Navy-Air Force initiative to examine whether the JTWC is a
    model for future efforts between the Services had previously been evaluated and
    that the Air Force had offered to study combining units in Hawaii in 1998 and
    again in 2000. However, subsequently the Air Force had changed their
    organizational structure and functions through reengineering and thus now
    consolidating Navy and Air Force units would pose a command and control
    challenge. The Air Force also stated that in order for the JTWC or any regional
    center to be a joint organization, the Commander in Chief, USPACOM, would
    need to establish joint billets for Navy and Air Force personnel assigned to the
    JTWC or other regional centers. In addition, the Air Force stated that the
    NAVAF initiative on regional center consolidation was closed since at least one
    unit from the four pairs of units recommended for consolidation had been
    inactivated or changed its mission.

    Audit Response. We disagree that the Oceanographer of the Navy and the Air
    Force Director of Weather have effectively closed the NAVAF initiatives cited
    in this report. We found no evidence that an evaluation had been performed to
    determine whether the JTWC could serve as a model for future cooperative
    efforts between Services. Although the Air Force had previously offered to
    study combining units in Hawaii, no action was taken. In addition, although
    current Air Force reengineering efforts require collocating OWS with numbered
    Air Force units, there are exceptions to the policy. For example, in the
    European Theater the OWS is located in Sembach, Germany, but the numbered
    Air Forces are located in Mildenhall, United Kingdom and Aviano, Italy. The
    command and control structure of a joint center should not pose a command and
    control challenge, as a single Military Department would be assigned
    operational responsibility for the center. For example, USPACOM
    Instruction 3140.1W, “Tropical Cyclone Operations Manual,” September 14,
    1995, states that the JTWC is a joint Navy and Air Force organization
    responsible for issuing tropical cyclone warnings for the USPACOM area of




                                       30
     responsibility. Therefore, the JTWC is a joint organization with Navy assigned
     operational responsibility for the center and assigned personnel are not in joint
     billets.

     The report has been revised to reflect that of the four pairs of Navy and Air
     Force operational METOC centers identified in the NAVAF agreement for
     consolidation, at least one of the Navy and Air Force METOC centers under
     consideration had either downsized its original mission or closed. However,
     although the four pairs had been either downsized or closed, the validity of the
     concept of consolidating multi-Service METOC centers is still valid.



Collocating and Consolidating Kadena and Misawa Weather
  Functions
     Air Force Comments. The Air Force stated that the Services had already
     reaped the economies and efficiencies from collocating METOC functions at
     Kadena and Misawa Air Bases in Japan. For example, at Kadena Air Base the
     Air Force provides a full spectrum of aviation weather services for naval forces
     assigned to or transiting the base. The Air Force also stated that the report
     failed to provide any factual evidence that any physical consolidation would
     result in increased efficiency or effectiveness. In addition, should physical
     consolidation occur, mission crews, or METOC briefers, would be required to
     travel across the base, increasing the possibility of compromising classified
     information.

     Audit Response. We agree that the Navy and the Air Force has “reaped” some
     economies and efficiencies from collocating METOC functions at Kadena and
     Misawa Air Bases, and have revised the report to reflect that aviation weather
     support functions have been consolidated at the two Air Bases. However,
     additional economies and efficiencies may result by physically collocating
     facilities. For example, in Okinawa the Japanese Government has requested
     additional efforts to consolidate United States presence on the island.
     Consolidating METOC functions at Kadena would provide additional space as
     well as the possibility of eliminating redundant communications lines. We do
     not agree that the physical consolidation of METOC functions would effect the
     compromise of classified information. It is the responsibility of the individual
     giving (the briefer) or receiving (the mission crews) to protect the classified
     information. If base security is a concern, it would effect both sides of the base
     without consolidation. However, without a study, real economies and
     efficiencies can not be effectively addressed.



Service Responsibilities

     Air Force Comments. The Air Force stated that the PACOM Director of
     Operations recommendation to perform a theater-wide evaluation to ensure
     METOC services are done in the most efficient and effective manner runs


                                         31
    counter to Title 10, United State Code (Title 10). Title 10 explicitly states that
    it is a Service responsibility to coordinate and cooperate with other Military
    Departments to provide for more effective, efficient, and economical
    administration and to eliminate duplication. The Air Force also felt that the
    recommendations were inconsistent with their view of how Air Force and Army
    forces should be supported under Title 10 to present the most capable forces to
    USPACOM.

    Audit Response. We disagree with the Air Force assertion that the
    recommendations of the report run counter to Title 10. Public Law 99-433,
    “Goldwater-Nichols Department of Defense Reorganization Act of 1986,”
    October 1, 1986, and Section 164 of Title 10, states that the command authority
    of combatant commands includes:

           • giving authority to subordinate commands and forces necessary to
             carry out missions assigned to the command, including authoritative
             direction over all aspects of military operations, joint training, and
             logistics; and,

           • coordinating and approving those aspects of administration and
             support, to include control of resources and equipment, internal
             organization, and training, and discipline necessary to carry out
             missions assigned to the command.

    In addition, Chairman of the Joint Chiefs of Staff Instruction 3810.01A,
    “Meteorological and Oceanographic Operations,” February 25, 1998, states that
    the designated combatant command senior METOC officer is to coordinate all
    METOC operations within the combatant commands area of responsibility.
    Further, the senior METOC officer is required to assign tasks to, and direct
    coordination among, the components to ensure unity of effort. Therefore, we
    do not believe that our recommendations infringe on Services Title 10
    responsibilities. However, we do agree that the Service components should play
    a role in any theater-wide evaluation of METOC support and have revised the
    recommendation to include Service coordination.



Future METOC Support Considerations
    Air Force Comments. The Air Force requested that the entire paragraph on
    page 12, “Future METOC Support Considerations,” be deleted stating that the
    National Polar-Orbiting Operational Environmental Satellite System is a
    tri-agency program in Phase I of the acquisition cycle and is undergoing
    requirements definition before the first expected satellite launch in 2010.
    Although the Interagency Program Office is performing well at this stage of the
    program, it is premature to assess the efficiency and effectiveness of the system.
    In addition, the Air Force noted that the audit team had not evaluated or visited
    the National Polar-Orbiting Operational Environmental Satellite System program
    office.




                                        32
    Audit Response. We agree that the National Polar-Orbiting Operational
    Environmental Satellite System is currently in the requirements definition phase;
    however, the satellite is expected to consolidate all civilian and military
    METOC systems into a single national system. Therefore, it is imperative that
    the Services begin to plan and prepare for the implementation of the new
    Tri-agency satellite system. At the specific request of the former Air Force
    Director of Weather, we did not evaluate or visit the National Polar-Orbiting
    Operational Environmental Satellite System program office.



Audit Support
    Air Force Comments. The Air Force stated that the report only provided a
    cursory evaluation of “the effectiveness and efficiency” of Pacific METOC
    support and only recommended an evaluation of possible improvements. In
    addition, the Air Force stated that the conclusions were not backed by a cost
    benefit analysis even though the audit has been going on for more than
    14 months. The Air Force also stated that the auditors continue to look inward
    at Air Force-Navy METOC efficiency and fail to address economies and
    efficiencies that the Air Force has already realized by looking outward to
    support our supported warfighters and leveraging industry and academia.

    Audit Response. The audit report provides an overview of Pacific METOC
    support. Although we would have liked to provide a more thorough evaluation,
    to include a cost benefit analysis, such an evaluation would have required
    lengthy on-site visits to all METOC locations in the theater. In addition, should
    we have recommend closure or consolidation of specific sites, the Air Force
    would have argued that we were infringing on their Title 10 responsibilities.
    The Air Force fails to recognize that although the audit has been going on for
    more than 14 months, the audit has resulted in four separate reports addressing
    different aspects of the weather program, to include, management and oversight
    of the program, METOC warplanning, METOC support in the Pacific theater
    and METOC support in the European theater. Although the Air Force stated
    that the auditors continue to look inward at Air Force-Navy METOC
    efficiencies and fail to address economies and efficiencies that the Air Force has
    already realized, the Air Force has failed to recognize that our approach has
    been to take a total DoD program approach to the audit, not a Service oriented
    approach.




                                        33
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff

Department of the Army
Deputy Chief of Staff for Intelligence
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Oceanographer of the Navy
  Commander, Naval Meteorology and Oceanography Command
  Commanding Officer, Naval Pacific Meteorology and Oceanography Center, Pearl
     Harbor
  Commanding Officer, Naval Pacific Meteorology and Oceanography Center,
     Yokosuka
     Commanding Officer, Naval Pacific Meteorology and Oceanography Detachment,
        Kadena
     Commanding Officer, Naval Pacific Meteorology and Oceanography Detachment,
        Misawa

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director of Weather
  Commander, Air Force Weather Agency
  Commander, Combat Air Force Command and Control System Program Office
  Commander, 17th Operational Weather Squadron
  Commander, 20th Operational Weather Squadron
      Commander, 18th Operational Support Squadron Weather Flight
      Commander, 35th Operational Support Squadron Weather Flight



                                          34
Department of the Air Force (cont’d)
  Commander, 607th Weather Squadron
  Director, Joint Typhoon Warning Center

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
  Commander in Chief, U.S. Pacific Fleet
  Commander, U.S. Pacific Air Forces
  Commander, U.S. Forces Japan
  Commander, U.S. Forces Korea
Commander in Chief, U.S. Joint Forces Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Space Command
Commander in Chief, U.S. Special Operations Command
Commander in Chief, U.S. Transportation Command
Commander in Chief, U.S. Strategic Command

Other Defense Organizations
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
 Relations Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform



                                         35
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report are listed
below.

   Shelton R. Young
   Evelyn R. Klemstine
   Gary R. Padgett
   Arthur J. Maurer
   Lieutenant Colonel Michael J. Barnes, U.S. Air Force
   Sean J. Keaney
